No.
SUPREME COURT OF THE UNITED STATES

DUSTIN MOSS
Petitioner
v.
UNITED STATES
Respondent
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT

PROOF OF SERVICE
This 20th day of February 2020 forty (40) booklet bound copies and one
unbound 8 ½” X 11” copy of the corrected Petition for Writ of Certiorari filed by
Defendant-Appellant Dustin Moss have been sent by UPS delivery to the United
States Supreme Court. Three (3) booklet bound copies of the corrected Petition for
Writ of Certiorari filed by Defendant-Appellant Dustin Moss have been sent by U.S.
First Class Mail, postage pre-paid, to The Solicitor General of the United States,
Room 5616, Department of Justice, 950 Pennsylvania Avenue N.W., Washington,
DC 20530-0001. A copy of the corrected Petition for Writ of Certiorari filed by
Defendant-Appellant Dustin Moss has been sent by email to Assistant United
States Attorney John S. Davis, United States Attorney’s Office, 53 Pleasant Street,
Concord, NH 03301, (603) 225-1552, john.davis8@usdoj.gov.
Date: February 20, 2020

/s/ Simon R. Brown, Esq.
By: Simon R. Brown, Esq.
Court of Appeals Bar No. 25463
Preti Flaherty PLLP
P.O. Box 1318
Concord, NH 03302-1318
Phone: (603) 410-1500
sbrown@preti.com
Attorney for Petitioner

15050907.1

